Executive Report



Return to the USDOJ/OIG Home Page



Office of Justice ProgramsGrants to Encourage Arrest Policiesto the City of Chicago Heights, Illinois
GR-50-00-019May 26, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Grants to Encourage Arrest Policies funds awarded by the Department of Justice, Office of Justice Programs (OJP) to the city of Chicago Heights, Illinois.  The purpose of the grant was to develop a centralized Domestic Violence Unit to track and follow domestic violence cases and to provide assistance to victims and their families.  The city of Chicago Heights was awarded $1,171,324 for the period of March 1, 1997 through June 30, 2000.  This audit was performed at the request of OJP based on allegations of impropriety in the use of grant funds.

In brief, our audit disclosed that costs claimed were allowable and adequately supported.  However, Chicago Heights failed to maintain a separate accounting code to track grant costs, and reported estimates instead of actual costs.  In addition, the grantee was not in compliance with the Office of Management and Budget Circular A-87 that requires maintaining semi-annual certifications to support salaries and wages of employees who worked solely under the grant.

The details of our audit are contained in the Findings and Recommendations section of this report.  Our audit scope and methodology are described in the Appendix.